<html>
<title> - BUILDING AND MAINTAINING AN EFFECTIVE HUMAN RESOURCE WORKFORCE IN THE FEDERAL GOVERNMENT</title>
<body><pre>[Senate Hearing 112-660]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-660

                      BUILDING AND MAINTAINING AN
                   EFFECTIVE HUMAN RESOURCE WORKFORCE
                       IN THE FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2012

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

75-213 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Lisa Powell, Majority Staff Director
                         Kara Sybenga, Counsel
                         Bryan Polisuk, Counsel
               Rachel R. Weaver, Minority Staff Director
                        Aaron Woolf, Chief Clerk








                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statement:
    Senator Akaka................................................    37

                               WITNESSES
                         Wednesday, May 9, 2012

Hon. John Berry, Director of the Office of Personnel Management..     2
Hon. John U. Sepulveda, Assistant Secretary, Human Resources and 
  Administration, U.S. Department of Veterans Affairs............     5
Anita Blair, Deputy Assistant Secretary for Human Resources and 
  Chief Human Capital Officer, U.S. Department of Treasury.......     8
John Palguta, Vice President for Policy, Partnership for Public 
  Service........................................................    26
Sara Thompson, Ph.D., Dean, Metropolitan School of Professional 
  Studies, The Catholic University of America....................    29

                     Alphabetical List of Witnesses

Berry, Hon. John:
    Testimony....................................................     2
    Prepared statement...........................................    38
Blair, Anita:
    Testimony....................................................     8
    Prepared statement...........................................    47
Palguta, John:
    Testimony....................................................    26
    Prepared statement...........................................    57
Sepulveda Hon. John U.:
    Testimony....................................................     5
    Prepared statement...........................................    42
Thompson, Sara Ph.D.:
    Testimony....................................................    29
    Prepared statement with attachment...........................    64

 
                      BUILDING AND MAINTAINING AN
      EFFECTIVE HUMAN RESOURCE WORKFORCE IN THE FEDERAL GOVERNMENT

                              ----------                              


                         WEDNESDAY, MAY 9, 2012

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order.
    Aloha and thank you all for being here today at the 
Subcommittee on Oversight of Government Management, the Federal 
Workforce, and the District of Columbia. We meet to examine how 
we can build and maintain an effective Federal human resources 
(HR) workforce.
    As we all know, we have always felt the workforce is very 
key and we need to do everything we can to keep the quality up 
and efficiency as well. We all know, the Federal Government is 
currently facing some of the most complex challenges in our 
Nation's history and doing so within serious budget 
constraints. As we celebrate Public Service Recognition Week, I 
want to take a moment to acknowledge and honor the dedicated 
public servants who are critical to meeting those challenges. 
Public servants provide so many vital services to our Nation. 
With the Federal workforce being asked to do more with less, 
making sure we have a top-notch workforce is more important 
than ever.
    So many talented, hard-working people want to dedicate 
their lives to serving their country and communities; but we 
need human resources professionals to make sure we are hiring, 
developing, and retaining the right people, with the right 
skills, for the right jobs.
    Federal agencies, and stakeholders, such as the Partnership 
for Public Service, have recognized that HR professionals 
currently are not fully equipped to fulfill modern Federal 
human resource missions. While these individuals still need to 
be able to perform traditional HR functions, such as hiring and 
benefit administration, they also need to be responsive and 
educated strategic partners with managers to help agencies meet 
their objectives.
    People are the Federal Government's most important asset, 
and we simply are not investing enough training, resources, and 
focus on the HR professionals who manage that critical asset. 
The Office of Personnel Management (OPM), the Chief Human 
Capital Officers Council (CHCOs), and individual agencies have 
been working together, along with private sector partners, to 
take on this challenge.
    So, I am so pleased to have all of our witnesses here today 
to tell us about these efforts and the challenges that they 
still face as they work together to professionalize the Federal 
HR workforce.
    Again, I want to share my appreciation with you, as our 
witnesses today, for all you have done. You really have done a 
great job, Mr. Berry and Mr. Sepulveda and Anita Blair. I thank 
you all, again, for being here.
    I welcome our first panel of witnesses to the Subcommittee. 
John Berry, Director of the Office of Personnel Management; 
John Sepulveda, Assistant Secretary for Human Resources and 
Administration at the Department of Veterans Affairs (VA); and 
Anita Blair, Deputy Assistant Secretary for Human Resources and 
Chief Human Capital Officer for the Department of Treasury.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses. So please rise and raise your right hands.
    Do you swear that the testimony that you are about to give 
the Subcommittee is the truth, the whole truth, and nothing but 
the truth so help you, God.
    Mr. Berry. I do.
    Mr. Sepulveda. I do.
    Ms. Blair. I do.
    Senator Akaka. Thank you very much.
    Let the record show that our witnesses answered in the 
affirmative.
    Before we start, I want you to know that your full written 
statements will be part of the record and I usually tell 
witnesses to please limit your oral remarks to 5 minutes but 
for this particular panel you have more than that. So, please 
feel free to tell us all you can.
    Mr. Berry, will you please proceed with your statement.

  TESTIMONY OF HON. JOHN BERRY,\1\ DIRECTOR OF THE OFFICE OF 
                      PERSONNEL MANAGEMENT

    Mr. Berry. Mr. Chairman, thank you so much and thank you 
for your dedication and your passionate support for all men and 
women who work for our Federal Government. Your leadership, 
your commitment has been unmatched in the history of this 
government. And, as the government's chief people person, I 
just want to say thank you on behalf of all of them for your 
commitment and passion that you expressed. Thank you, sir. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berry appears in the appendix on 
page 38.
---------------------------------------------------------------------------
    I also want to thank and recognize, the Chief Human Capital 
Officers Council, Mr. Chairman, which you created, you and 
Senator Voinovich, has become, thanks to the incredible 
leadership of all the CHCOs on that counsel, I think one of the 
most productive councils in the entire government.
    They have been a rock and roll group and have produced 
solid results, whether it be simplifying and streamlining the 
speed and time in which we can hire people, hiring our 
veterans. Today, we launched a major new initiative, Mr. 
Chairman, to hire students and issued, will be issuing tomorrow 
the final regulations for the President's Student Pathways 
Program; and none of these programs could have happened without 
the incredible and passionate leadership of our CHCO Council 
and two of our best and brightest CHCOs.
    In fact, John was elected by his peers as CHCO of the year 
last year. So, I am honored to be here with John Sepulveda and 
Anita Blair, who are just two great colleagues on the CHCO 
Council.
    Senator Akaka. Congratulations, John.
    Mr. Berry. I am pleased to have the opportunity to talk to 
you about how we can better professionalize the human resources 
career field in the Federal Government.
    A strong HR community meets a core strategic mission for 
the Federal Government. When HR professionals get the training 
and the skills to do their jobs well, we will see unmistakably 
better results.
    For example, we have increased focus on training HR 
professional's under the Veterans Employment Initiative, that 
the President issued an Executive Order (EO) on, with advanced 
e-learning modules and quarterly roundtables where we bring 
each of the veterans employment program office managers 
together. We have been able to hone HR professionals knowledge 
of veterans appointment authorities, disability hiring, and 
reasonable accommodation approaches, and best practices between 
the agencies through that forum.
    That has translated into a direct result, Mr. Chairman, 
that you and American taxpayers can be proud of. The effort to 
contribute has significantly increased our veterans' hiring 
over the past 2 years. It is 4.3 percentage points higher than 
it was 2 years ago thanks to this effort and we have now 
reached 28.3 percent of our new hires in 2011. That represents 
a 20-year high, Mr. Chairman, of veterans' hiring in our 
Federal Government.
    Disabled vets have also benefited under this program. We 
have moved from 7 to 9 percent of disabled hires, a 2 percent 
increase over that same 2-year period. And, it is proof 
positive that training is an investment that can produce better 
results.
    In 2001 the Government Accountability Office (GAO) 
identified the Federal Government's management of HR as, quote, 
the critical missing link in reforming and modernizing the 
Federal Government's management practices.
    Over the last several years, working with the CHCO Council 
and other agencies, we have aggressively launched initiatives 
to enhance the skills of our HR professionals across the 
government. The Administration has also made closing Federal 
skill gaps one of only 14 cross agency priority goals for the 
entire government, and I am the accountable official in 
producing that result.
    My team partnered with a CHCO Council in addressing this 
skill gap in HR and we have been regularly briefing GAO on our 
efforts. And, Mr. Chairman, I look forward. I hope, if we 
complete this project, that we will remove HR as a high risk 
area from the GAO high risk list within the next 12 months. So, 
that is our goal and our target.
    The recently created HR University Web site, created again 
through our leadership of the CHCO Council, provides an 
excellent foundation for training with a combination of 
classroom, online, and web-based courses across the government.
    Our growing catalog includes government training, vendor 
training and we recently offered for the first time college-
level courses on HR management so that people could earn 
college credits while taking these training and development 
programs.
    The HR University (HRU) also represents an important 
savings, Mr. Chairman, for our Federal Government and our 
taxpayers. Through sharing these resources and economies of 
scale on the HR University Web site, the figure of savings that 
we have had by having agencies take advantage of these free 
training programs is now approaching $14 million.
    OPM is also building a new approach to mentoring. Not only 
are we having mentoring for our employees and helping new 
employees who are coming in to be supported by mentors in this 
field and in our profession but we are also mentoring smaller 
agencies with larger agencies, creating, if you will, HR 
mentorship clusters.
    And, I think this is going to be a very important one 
because a lot of smaller agencies, especially in declining 
budgets, Mr. Chairman, as you know, have to tighten their 
belts, they can benefit from larger agencies that have the 
resources to develop the training and skills and best 
practices, and we think that is going to be great.
    We are also partnering with colleges and universities now 
to create new opportunities for HR professionals to pursue 
advanced professional training towards both Bachelor and Master 
level degrees and we will be launching partnerships with 
several of the colleges in the greater D.C. area where you know 
we have a lot of Federal employees.
    Our goal is to do it first here in the D.C. area but then 
take it out nationwide and have our Federal Executive Boards 
(FEBs) do the exact same kind of partnerships in metropolitan 
areas all around the Nation.
    These agreements will enable our HR professionals to take 
courses on the campuses of these institutions as well as take 
advantage of web-based training that will equip them for 
advanced service in Federal human resources.
    Finally, our Federal Executive Boards which, as you know, 
Mr. Chairman, I know we have a great one in Honolulu. There are 
28 of them around the country. All of our major metropolitan 
areas have them. They are not only essential for emergency 
training but they are also wonderful places for us to get best 
practices in human resource management out to the field.
    People forget, the taxpayers forget, sir, 85 percent of our 
Federal Government employees are outside of the Washington, 
D.C. area; and how we can reach those employees is through our 
Federal Executive Boards and they are doing a phenomenal job.
    The taxpayers should know that this is a shoestring 
operation that operates, if you will, with minimal support from 
OPM through our budget but then also agencies in each of those 
regions pony up a little bit of money to staff, to provide the 
staff with this but it is the best buy in the Federal 
Government.
    Last, as you mentioned, Mr. Chairman, it is Public Service 
Recognition Week, and we decided rather than to do the 
traditional lunch celebration for our employees, rather than do 
that this year, we took advantage of launching something that 
was developed at our Labor-Management Partnership Council at 
OPM, and we opened on Monday of this week a new center for 
innovative learning and professional growth at the Office of 
Personnel Management.
    We want to be a leader in training and developing our 
people. As you said so well, sir, they are our most important 
resource, they are our most important asset. We have got to 
develop them.
    My goal is that I want every employee at the Office of 
Personnel Management to have a career development plan that 
they had developed in concert with their supervisor and trained 
professionals so that they can be all that they can be; and it 
is not just the building, it is not just the location, it is 
not just a curriculum.
    I look at it as a launch pad for these people to be able to 
go as far as they want to go in their career. And you know 
what, if, at the end of the day, John Sepulveda or Anita hire 
them away from us, that is for the good of the government.
    So, the fact that they got their degree at OPM will just 
help spread the wealth. And so, we are celebrating our 
employees by giving them that career opportunity tool in 
advancement.
    And, I have my Chief Learning Officer here with me today, 
Joseph Kennedy. He is an outstanding career senior executive. 
But he has been leading this effort with our union partners, 
the American Federation of Government Employees (AFGE) Local 32 
and 2450.
    It was a phenomenal launch and one that I know is just 
going to get better and better, and we are hoping it can become 
a template, sir, that we can translate across the government.
    So, with that, Mr. Chairman, I appreciate your generosity 
and the time. I will look forward to answering any questions 
and look forward to discussing with my colleagues here at the 
table.
    Senator Akaka. Well, thank you very much. I see that as an 
interesting and new model, that we can use and begin to 
disseminate throughout the country.
    Mr. Berry. Yes, sir.
    Senator Akaka. Thank you very much for your statement.
    Mr. John Sepulveda, please proceed with your statement.

 TESTIMONY OF HON. JOHN U. SEPULVEDA,\1\ ASSISTANT SECRETARY, 
HUMAN RESOURCES AND ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Sepulveda. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sepulveda appears in the appendix 
on page 42.
---------------------------------------------------------------------------
    Let me begin by echoing some of the remarks made by 
Director Berry in thanking you for your years of leadership in 
building a more effective and efficient Federal Government, for 
helping us to create the CHCO Council which, as Director Berry 
has indicated, is truly a great tool to address human capital 
challenges.
    I have the benefit of perspective. I was a Deputy Director 
of OPM in the Clinton Administration before we had something 
called a CHCO Council; and I can tell you that this Council, 
under the strong leadership of Director Berry, is tackling some 
really tough issues, hiring reform, veterans employment, so 
many other things.
    And, the fact that we have a counsel and there is great 
respect among the colleagues and the fact that we know that we 
should not try to solve these problems on our own, we should 
share resources, best practices, and we should support one 
another is making all the difference in the world. And, we are 
moving the needle and I am really very proud of the efforts of 
our Chairman, Director Berry, in keeping our eye on the ball.
    And I also want to thank you, sir, for your years of 
leadership on behalf of veterans and that is obviously 
something that is particularly important to us at the 
Department of Veterans Affairs (VA).
    Chairman thank you for the opportunity to testify today on 
our efforts to build and maintain an effective human resources 
workforce at the Department of Veterans Affairs. I serve as 
Secretary Eric K. Shinseki's Chief Human Capital Officer at an 
agency of over 317,000 employees at over 1,400 facilities that 
stand ready to serve the Nation's 22 million Veterans, their 
families and survivors through the delivery of authorized 
benefits and services.
    To deliver high quality services to veterans, the VA needs 
a highly skilled and competent workforce. The foundation for 
this workforce is a cadre of over 4,000 human resources 
professionals at VA.
    For all Federal HR professionals, there is an urgency to 
address the changing human capital needs of government. Human 
resource professionals must help agency leaders to hire more 
quickly; deliver superior employee and leadership training; 
promote productive labor-management relations; and assist the 
departments to improve services to the American people.
    To deliver effective benefits and health care to a growing 
population of veterans with changing needs, President Obama 
charged Secretary Shinseki with the job of transforming VA into 
a 21st Century organization. VA developed 16 major department-
wide tranformational initiatives, including one called Human 
Capital Investment Plan.
    The success of all of these initiatives requires a well-
led, well-staffed and well-trained workforce which is where HR 
comes in.
    As the Assistant Secretary for Human Resources and 
Administration, I support VA's transformation by overseeing the 
strategic human capital investments. These investments have 
resulted in new training courses and online delivery systems as 
well as a new infrastructure to address the mission-critical 
skill gaps and other workforce challenges faced by the 
department.
    This infrastructure consists of the following five 
strategic components. First, we executed a corporate approach 
to employ leadership training and development through the 
creation of VA's HR Academy, and VA's Learning University.
    The HR Academy, which offers online courses as well as in-
person courses, and might say it preceded the HR University, 
offers a wide range of courses specifically designed for VA's 
HR professionals while the learning university's is a corporate 
university providing thousands of skill-building modules and 
training opportunities across the department.
    Second, we created something called <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d29fab91b3a0b7b7a0928493">[email&#160;protected]</a> which is an 
online career path tool for all employees including HR 
professionals. Using a competency assessment model, this tool 
identifies individual skill gaps, the necessary training to 
fill them, and also assists employees to map and manage their 
careers, all of which helps VA improve recruitment, retention, 
and performance.
    This is a really critical capacity because to the extent 
that we have our individual employees able to know what is it 
that they are missing to be able to do their jobs better and to 
progress in their careers, to the extent that we have that 
capacity we can connect them to the appropriate training or 
rotational assignments.
    So, we keep these great employees, we build their skills, 
and we also help them to get the department to perform at a 
higher level.
    Third, we establish a centralized online training platform 
called the Talent Management System that delivers world-class 
educational programs to VA employees throughout the country.
    Fourth, specialized training is provided to HR 
professionals and hiring managers to increase the hiring of 
veterans within VA through new and innovative recruitment, 
retention, and reintegration strategies developed under a new 
program that we developed called VA for Vets, which is also 
predicated on helping veterans, and especially those coming 
back from Afghanistan and Iraq, to translate their skills and 
their experience into the civilian world, into civilian-speak, 
so they can be competitive looking for jobs in the Federal 
Government and in the private sector.
    Finally, we continually evaluate these programs for 
effectiveness in order to determine a return on investment. VA 
has also worked very closely in partnership with the Office of 
Personnel Management, the Chief Human Capital Officers Council 
and other Federal agencies to successfully address a variety of 
governmentwide HR challenges like hiring reform, veterans 
employment, among others.
    Developing the capacity of HR professionals must be a 
priority for Federal agencies even in these challenging times. 
We will not achieve a leaner, smarter, and more efficient 
government without trained and engaged HR professionals at the 
table.
    VA's strategic human capital investment plan is intended to 
help employees to better serve our veterans. We will continue 
to invest in the training, the systems, and the infrastructure 
that builds and strengthens the core of our department, our 
people.
    Thank you again, sir, for the opportunity to share VA's 
experience for building and maintaining an effective human 
resources workforce. And, I look forward to your questions. 
Thank you very much, sir.
    Senator Akaka. Thank you very much, Mr. Sepulveda.
    Ms. Blair, will you please proceed with your statement.

  TESTIMONY OF ANITA BLAIR,\1\ DEPUTY ASSISTANT SECRETARY FOR 
     HUMAN RESOURCES AND CHIEF HUMAN CAPITAL OFFICER, U.S. 
                     DEPARTMENT OF TREASURY

    Ms. Blair. Mr. Chairman, I also would like to echo the 
thanks by giving you a big mahalo for all of your leadership 
over the years and everything you have accomplished.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Blair appears in the appendix on 
page 47.
---------------------------------------------------------------------------
    My personal thanks as a government employee and on behalf 
of everybody that we all serve.
    Thank you for the opportunity to testify today on the role 
of the Department of the Treasury in building and maintaining 
an effective human resource workforce in the Federal 
Government.
    My written testimony contains many additional background 
details. In the interest of time today, I will focus here on 
three topics. First, the Treasury Department's efforts to 
develop and train its HR professionals; second, our joint 
efforts with other governmental and nongovernmental agencies; 
and third, the most significant challenges facing our 
department in developing and training HR professionals.
    Although this hearing concerns the human resource 
workforce, our strategy at Treasury has been to develop our 
human resources, equal employment opportunity, and training 
specialist together because each area impacts the other two. 
Thus, I often refer to our human capital workforce which for us 
includes all three.
    On efforts to develop and train Treasury's human resource 
professionals, the Treasury Department's journey over the last 
few years to develop and train its professionals has consisted 
of a number of progressive steps.
    Step one was recognizing the need to transform the human 
capital occupation. In its 2007 to 2012 human capital strategic 
plan, the Treasury Department recognized the need to transform 
HR practitioners into strategic partners with business owners, 
to identify and develop HR practitioner competencies, and to 
facilitate career development for HR practitioners.
    One of our strategic plan goals specifically requires us to 
promote the transformation of Treasury's human resource, 
training, and equal employment staffs, our human capital 
community, into a cadre of human professionals who serve as 
valued business advisors on people and organizations, and 
promote and organizational culture of fairness and respect.
    Step two was listening to the voice of the customer. Our 
first step, after recognizing the need, was to survey our 
customers, the mission, operational, and business leadership 
across Treasury.
    Detailed interviews of Treasury leaders disclosed an urgent 
need to build proficiency, not only in our technical HR 
competencies but in general competencies such as business 
acumen and strategic planning.
    Step three, developing a role-based competency model and 
career map framework. We built a role-based competency model 
that builds on the technical specialist role and incorporates 
the newer expectation of a strategic business partner.
    We defined and developed three roles. First, the technical 
specialist role. Technical specialists apply intensive 
knowledge of specific technical areas to address and resolve 
immediate needs of business.
    The advisor role. As tactical consultants, advisors develop 
innovative human capital solutions to address customer issues 
and achieve specific business goals with an eye on those of 
tomorrow.
    The strategic partner role is the culmination. Strategic 
business partners identify broad human capital issues ahead of 
business leaders. They are high-level consultants who develop 
strategies to address long-term business needs.
    We validated our model by surveying all of our human 
capital practitioners and supervisors. The survey confirmed 
that general as well as technical competencies are critical and 
most are needed at the entry level. Key general competencies to 
be developed included strategic thinking, change management, 
and business acumen.
    Step four, assessing the competencies of the HR workforce. 
After researching assessment tools, we planned and launched the 
Treasury competency assessment process for human capital.
    About 95 percent of our total human capital workforce 
completed the assessment. Each employee's self-assessment was 
compared and weighted with the supervisor's assessment of that 
employee. The assessment process revealed significant gaps in 
technical and general competencies agencywide.
    Step five, closing those gaps. To begin to close these gaps 
at the individual and office level, all Treasury human capital 
employees, with input and approval from their supervisors, were 
required to develop an online, competency-based individual 
development plan. These plans are regularly reviewed and 
updated.
    Because competency gaps were found departmentwide, we 
decided to attack them on a departmentwide basis. A planning 
team comprising 55 representatives from across the Treasury 
Department identified the high priority gaps and recommended 
methods to close them.
    We formed four teams, three to deal with technical 
competencies for HR, the Equal Employment Opportunity (EEO), 
and training and another to address the general competency 
gaps.
    As an example, the HR Technical Competency Team identified 
5 of the 10 high priority technical competencies: staffing, 
classification, employee relations, labor relations, and 
performance management. Over the ensuing 6 months, they worked 
to develop learning objectives for each specialty area. For 
each specialty, they built a career roadmap describing the 
requirements to become a technical expert and recommending ways 
to gain that knowledge at beginning, intermediate, and advanced 
levels of proficiency.
    The EEO Technical Competency Team and the Training 
Technical Team followed a similar process to develop knowledge 
frameworks and career maps for their technical areas.
    The General Competency Team added Customer Service and 
Metrics Use and Development to the previously identified key 
competencies of business acumen, strategic thinking and change 
management.
    The competency teams working together then developed a 
number of solutions to close these gaps. The initial set of 
Human Capital transformation projects includes initiatives in 
the areas of training, experience, and resources.
    Under training, we have Quarterly Focus Days. Employee 
Development Focus Days were inspired by ``Stand Down Days,'' 
which are often used in the military and other Federal agencies 
to raise awareness on key topics of interest.
    Focus Days will provide employees approved time for 
continued learning and development, will develop key 
competencies within the workforce, and will unify the human 
capital community by focusing on common goals.
    Another training initiative, orientation for our new human 
capital professionals. New members of our human capital 
community, no matter when they come on board, will have an 
immediate introduction to the community through a multimedia 
program.
    Community leaders will provide information about Treasury's 
expectations for its human capital professionals and available 
career paths.
    In the area of experience, two initiatives include flash 
mentoring. Flash mentoring enables small groups to engage with 
multiple mentors in a single setting. A small group discussion 
format allows participants to hear from their peers as well as 
their mentor.
    Flash mentoring is low-cost and relatively easy to 
administer, making it an ideal program to reach community 
members outside the Washington, D.C., area.
    Another initiative under experience is Temporary Job Swaps. 
Two or more employees in different organizations within or 
outside of their current bureau may ``swap'' jobs on a short 
term basis to acquire new skills and knowledge. These mini-
rotations on an intra-agency basis will promote cross-
fertilization of best practices through the sharing of 
knowledge between organizations, as well as cross-training and 
development for individuals. ``Job Swaps'' are also a low cost 
initiative with potential for improving employee engagement.
    In the area of resources, we offer new career guides. 
Career guides are catalogs of development opportunities for 
individuals in human capital specialties. For each technical 
skill area, as well as each general competency, volunteer teams 
of experts are compiling a career guide that breaks down the 
relevant competencies and describes various methods of 
acquiring the skill or knowledge. These guides will be posted 
on the Treasury Web site and periodically updated.
    Finally, in the area of resources, we are engaging in a 
program for Human Capital Strategic Partner Certification. We 
are designing a model for certification that will encourage 
employees not only to maintain their basic competencies but 
also to develop additional competencies and acquire the 
relevant experience necessary to advance in their careers.
    Step 6 has become designing and building a Treasury Human 
Capital Community. As noted earlier, in 2007, our Human Capital 
Strategic Plan established the goal to ``Develop Human Capital 
Practitioners as Strategic Business Partners.''
    Five years on, now in 2012, we observed that rapid changes 
in business and technology demand new roles and career paths 
for human capital professionals.
    For example, we see the need for not only strategic HR 
business partners, but also HR information technology 
specialists, performance management specialists, multisector 
workforce planners, and experts in workforce analytics.
    Accordingly, instead of focusing primarily on creating a 
specialty for human capital strategic business partners, we now 
envision creating a community framework whose senior leaders 
will continuously scan the horizon and prepare the human 
capital workforce to respond rapidly to changing business 
needs.
    We are modeling the structure and roles of our new human 
capital professional community on examples such as the Federal 
acquisition community and well-established professional 
communities such as law, medicine, engineering, and teaching.
    Taking a lesson from the acquisition community, I 
established the Treasury Human Capital Community Executive 
Steering Committee (ESC). The ESC members are accomplished 
Treasury executives who understand how to forge an adaptable 
and agile workforce by leveraging basic capabilities to meet 
emerging requirements.
    The ESC provides high level oversight and direction to 
Human Capital community development projects including those I 
just described. All projects will be monitored, measured, and 
evaluated.
    The ESC will have final approval of all deliverables. In 
this way, the ESC will help set high, uniform, and consistent 
standards of quality to which our human capital professionals 
must aspire.
    Step 7, looking to the future. Our future plans include 
reassessing the levels of critical competencies in the human 
capital workforce next year and renewing individual development 
plans to reflect achievement of previous personal development 
objectives and establishment of new objectives.
    Treasury's Human Capital Strategic Plan will be updated for 
the period 2013-2018. We expect to expand our vision to include 
building other professional communities, especially mission-
critical occupations and management-related occupations such as 
finance and information technology (IT) that typically serve 
agencywide customers.
    We look forward to collaborating in this endeavor with 
other Federal agencies under the OPM and CHCO Council Federal-
wide, high risk initiative. Communications will continue to 
play a key role in all our efforts to maintain momentum and 
communicate expectations. We hope to expand our Web site, 
including access to social media.
    We are already starting to build capability in workforce 
analytics, and we plan to use more sophisticated forms of 
analysis to aid in developing both the human capital community 
and other occupational communities.
    Our joint efforts with other governmental and non-
governmental agencies: We have been, and will continue, working 
closely with the CHCO Council and OPM to support HR University.
    The role-based portion of our model was incorporated into 
HRU's career map. We will also continue to push for a 
governmentwide competency model, which would include the 
necessary business competencies we believe are the key to 
effecting change.
    We are taking the lead for HRU on its interagency 
certification team to find a governmentwide solution to 
professionalizing its human capital occupation.
    Treasury's draft certification process is currently being 
examined for its potential to be adapted as a governmentwide 
solution. Treasury is a strong supporter and participant in the 
Partnership for Public Service's Emerging Leaders Program.
    We have had two dozen graduates from all across all our 
bureaus. This is exactly the type of program critical to 
developing the strategic partners we need.
    Significant challenges we faced. One thing that has not 
been a challenge is persuading our HR practitioners that they 
should embrace the responsibilities of acting as human capital 
professionals.
    Our HR, EEO, and Training specialists are eager to learn, 
grow, and create a community to improve the quality of their 
work and service. Notwithstanding their enthusiasm, some 
cultural and environmental impediments persist.
    For example, as a result of past reductions and demographic 
effects, there is a generational gap that could create the risk 
of a knowledge gap unless we can transfer knowledge and skills 
from the more experienced workers to the more junior workers.
    Delivering programs to increase training, education, and 
experience can be a challenge. The typical challenges 
associated with any large change effort apply in this case.
    Most of our efforts so far have been high return with low 
financial investment, and that is our preferred way of doing 
business. We are reaching the point, however, where some 
reliable level of investment, particularly in IT and training, 
as well as flexibility to provide people for rotational 
assignments, will be necessary to be able to maintain progress 
and anchor positive changes in the culture of the organization.
    Mr. Chairman, as you noted in your opening remarks, people 
are the most important and most valuable asset of any 
organization and for people to perform well they must be led 
and managed well.
    We expect managers in any area to be good with people, but 
the experts in the science and art of leading and managing 
people should be the human capital professionals. We at the 
Treasury Department, are doing our best to transform ``HR'' 
into a community of professionals who are experts in their 
field, committed to continuous learning and improvement, 
ethically bound, selflessly dedicated to the interests of those 
whom they serve, and loyal to the law and rules they 
administer.
    Sir, we very much appreciate the opportunity to tell our 
story today and look forward to your questions.
    Senator Akaka. Thank you very much, Ms. Blair.
    I have a question for both you, Mr. Sepulveda, and also Ms. 
Blair. You both testified about the skill gaps, the skill gaps 
you found among your agency's HR specialists and my question to 
you is: What do you consider to be the root causes for these 
gaps at your agency and at the Federal agencies more generally 
as well? Mr. Sepulveda.
    Mr. Sepulveda. Mr. Chairman, I think that, first and 
foremost, what we did at VA is we conducted some fairly 
rigorous assessments to identify specific competencies that HR 
professionals will need to be able to accomplish their jobs.
    So, we identified 20 specific competencies, and then we 
looked at our 4,000 plus HR professionals to see how they 
matched up, and we found that because of the years of absence 
of training and developmental assignments in those specific 
areas we had quite a number of our HR professionals who were 
missing some of those core competencies.
    So, one of the things that we did fairly early on is to 
create this HR Academy which combines online training, because 
there is no way we are going to be able to train everyone 
scattered across the VA footprint around the country face to 
face.
    So, we developed some fairly rigorous courses. We partnered 
with OPM to make sure that whatever content we were developing 
also met their standard requirements, and then we proceeded to 
also identify, working very closely with these professionals, 
to identify what are the trends in HR that we need to be 
developing skills in so that we are better positioned to assume 
that strategic consulting role.
    So, it was an assessment. It was surveying our colleagues, 
working with OPM, also looking around to what other departments 
were doing. And, the fact of the matter is that we made some 
significant progress in filling those gaps. We have a lot more 
to do. But I am really proud of the progress we have made.
    Senator Akaka. Thank you. Ms. Blair.
    Ms. Blair. Mr. Chairman, I would agree with John 
Sepulveda's assessment of the causes of the gaps and I would 
add one more which is that in our human resources community 
very often we find that there is a demographic discontinuity, 
that not all of the junior workers have had the opportunity to 
have more senior mentors who have been able to show them the 
ropes; and that is one of the reasons that has compelled us to 
focus on creating a human capital community.
    In this way even if you are a more junior person or even if 
in your time working in human resources you did not get the 
benefit of people advising you, by expanding our scope to 
comprise all of our 1,700 HR, human capital professionals at 
Treasury everybody will have the opportunity to get a mentor 
and to get people who will take an interest in their 
development.
    Mr. Sepulveda. Mr. Chairman, I want to add to my remarks by 
adding another area of consideration, and that is the fact that 
we are asking HR professionals to do much more than ever 
before.
    We are asking them to lead change. We are asking them to 
also do the basic HR functions. We are asking them to be 
strategic consultants. We are asking them to help get managers 
prepared to engage in productive labor-management relations. We 
are asking them to do veterans employment efforts. We are 
asking them to increase efforts in the diversity and inclusion 
area.
    So, I mean, the list goes on and on and on; and it seems 
like while you are beginning to address the skill gaps that 
represent the core competencies, you are also adding some 
additional responsibilities as we try to make the HR workforce 
be able to support the transformation that government needs to 
go through in the times.
    So, that is another consideration, sir.
    Senator Akaka. Thank you. Mr. Berry.
    Mr. Berry. Mr. Chairman, I just wanted to add, to return if 
I could for a moment to the GAO high-risk area and how we are 
approaching that; and if I could, I would also like to 
recognize and thank the Executive Director of our CHCO Council.
    I mention my colleagues but we would be adrift without the 
stable and steady leadership and the incredible professionalism 
of Kathryn Medina on my team who is behind me here. She does a 
phenomenal job. She is our Executive Director of the Council.
    And Kathryn, working with the Defense Department (DOD) in 
our CHCO working group and the GAO, they did a rigorous 
analysis of data across the government and identified five 
high-priority governmentwide occupations that are critical 
skill gap areas that we must close immediately.
    And they are IT, HR, acquisition, financial auditors and 
economists. In addition, we created one broad area, the STEM 
area, science, technology, engineering, and math as a 
functional area that we need to specifically pursue.
    And we are now working through the CHCO Council to develop 
the most effective strategies to close the gaps in these 
occupations with the goal of closing 50 percent of the skill 
gaps by the end of 2013. And, we will regularly refresh to make 
sure that is a constantly refreshed list as well as constantly 
met challenge list to go forward.
    So, that is how we will get occupations removed from the 
high-risk list by showing that we are identifying them in a 
rigorous manner and then pursuing an effective filling of those 
skill gap areas by developing the training programs that are 
necessary.
    Senator Akaka. Yes. Mr. Berry, I was interested in your 
opening statement about what OPM has been doing in their 
programs, and I was pleased to hear that you are developing 
partnership agreements with some local colleges and 
universities.
    I would like to hear more about these agreements and what 
specifically OPM hopes to accomplish by partnering with these 
institutions of higher learning. And again, going back to your 
statement, besides partnering, I know you look forward to 
sharing resources as well and other things but partnering is 
one of them.
    So, will you please tell us more about your agreements.
    Mr. Berry. Mr. Chairman, thank you.
    It has been my opinion that much of the training that we 
pursue in the government, we often do not have the energy and 
the focus on it because we have not made that training 
accredited.
    Oftentimes people will take a training course and they will 
either get a certificate or they will get a nice thank you at 
the end, and hopefully they will develop skills that will help 
them to do their job better.
    In my experience, I have always found that the quality of 
the attention of the person is directly related to their self-
interest. And to the extent that we can build accreditation 
into our programming and into our training, we are going to get 
people paying a lot more attention and taking the program a lot 
more seriously and showing up and doing it and taking whether 
there is a web-based component, whether there is a classroom 
component, they will put the energy, the time, and the effort 
into it because they know at the end of the day not only do 
they get better skills, they also get accredited college course 
credit that goes toward a degree which can help them advance 
both in their job as well as in their career, quite frankly, 
and have something that is transferable and portable with them.
    In other words, that degree goes with them wherever they go 
whereas the certificate they received at a training course 
might not.
    So, I have been pushing since I got here, working with our 
training professionals whether it be at the Federal Executive 
Institute, all the training we are doing through the CHCO 
Council and others, let us make sure wherever possible we 
increase the accreditation linkage.
    Well, the government cannot accredit courses. That has to 
come through university partnership, and so, in the D.C. area 
we are working with Northern Virginia Community College (NVCC), 
Prince George's Community College (PGCC), University of the 
District of Columbia (UDC) and the University of Maryland (UMD) 
and George Mason University (GMU).
    That is just our starting group. We are looking also beyond 
that. The first courses that have been accredited on HR 
University have been at Catholic University.
    So, what we are looking at is taking our courses, 
partnering with universities to look at them and say either 
here is what you need to add to get accreditation or why do you 
not marry this program with this program that we have already 
developed and together that will help deepen and broaden the 
human resource professional training that needs to be done for 
your workforce.
    So, we are working very hard on this area, and I think next 
year is going to start to be the year that we will start to see 
significant fruit. And I hope we will prove that this can be 
done. There are hundreds of colleges in metropolitan areas 
where Federal employees are. We can take advantage of that same 
model.
    In our area especially, I know some of our lower grade 
employees are having a hard time, as you well know, sir, with 
the cost of living and that the Federal wage rates are tough to 
keep up with the cost of living, especially for our lower wage 
earners.
    And so, I thought it was critical we work with community 
colleges as well, to increase both affordability and access. 
They are closer to where a number of our employees live. They 
offer courses much more readily in the evening hours and on 
weekends, and so, our employees can marry their work life with 
their educational advancement and still do it in an affordable 
manner such that we can help them advance in their career.
    So, I am very excited by the program. I think it is one 
that, if we do it right, we will be able to develop this in 
such a way that it could go all across the country, and I will 
look forward to teaching courses with you in Honolulu someday. 
[Laughter.]
    Senator Akaka. Yes. Well, thank you so much for that. I 
should tell you that I had a rare experience of speaking with 
10 university presidents across the country, and I took the 
advantage of talking to them about the need for the 
universities and colleges to pay a little more attention 
towards the Federal Government in preparing its workers or 
people to work in the Federal Government.
    And, I am hoping we can again expand that and begin to have 
definite programs. But I think the universities, as you are 
doing now, can really make a difference; but as you said for a 
person to receive a credit, something they can add to their 
resume, you are really correct in that. Thank you for that 
response.
    Mr. Sepulveda, as a veteran and senior member of the Senate 
Veterans' Affairs Committee, I was interested about the VA for 
Vets Program which trains HR professionals in hiring managers 
to increase veterans' employment within the VA.
    I would like to hear more about this program. I am curious 
to hear what kind of feedback you received from veterans on 
that.
    Mr. Sepulveda. Thank you very much for that question, Mr. 
Chairman.
    Actually, we are really very proud of VA for Vets. It is 
really an integrated platform. It includes an online program 
that allows for the translation of military experience and 
skills into civilian-speak, to English.
    It also has built into it an assessment tool so that an 
individual veteran can begin to identify what kinds of 
occupations they might be interested in based on their interest 
and skills and their aptitudes.
    So, the data from that assessment, the data that comes from 
the military skills translation, results in a resume that is 
acceptable to every single Federal agency. We work with OPM to 
make sure that the resume that gets produced can be used to 
apply via USA Jobs.
    We also then connect that to coaches so that we have our 
veterans go through that process online; but at a certain 
point, they want to talk to an individual, a human being who 
can answer questions about how to go about applying for a job 
in the Federal Government. So, we have coaches working with 
these individuals to get them ready.
    And then, we have an office that we set up under the 
direction of the Secretary, the Veterans Employment Services 
Office, where I have a team of people who are largely veterans 
themselves, and their jobs are to be advocates for veterans to 
be hired within VA, utilizing the veterans preferences that 
allow for direct hiring.
    And so, we combine all of those elements together and as a 
result we have used that program successfully within VA. It has 
only really been in operation for less than 6 months. We have 
already helped in the hiring either directly at VA or other 
Federal agencies or the private sector of over 1,000 veterans.
    We did a major hiring event with the cooperation of the 
Director of OPM and several other Federal agencies and we hired 
upwards of 600 veterans at that event alone.
    And, veterans have sent their comments to us telling us 
that they really wish they had this tool, some time ago.
    The good thing is, again using the CHCO Council, this is 
where the CHCO Council really truly is a working body and 
working with Mr. Joseph Kennedy, who represents the Director on 
veterans employment issues, we are looking to migrate this 
technology to other Federal agencies.
    The taxpayers should not have to pay more than once for 
this technology. So, while it is of great benefit to VA, it can 
be equally a good benefit to other Federal agencies that are 
committed to hiring more veterans. So, we are very proud of 
that initiative and you are going to be hearing more about that 
in the months to come, sir.
    Senator Akaka. Thank you very much for your response.
    Mr. Berry. Mr. Chairman, if I could just add.
    Senator Akaka. Sure.
    Mr. Berry. A good example of this where the VA has been 
phenomenal at developing a cutting edge technology and then 
sharing it with other agencies, they have done that with Blue 
Button.
    They invented it, and we have now adopted it for the 
Federal Employees Health Benefits Program (FEHB). We could not 
have done that without the VA leadership; and once again John, 
the Secretary, and Scott Gould, the Deputy, they have stepped 
up and on the VA for Vets program, I think have developed an 
amazingly powerful IT tool that shame on us if we cannot spread 
it across the government and so we are working hard at doing 
that and I cannot thank them enough because it is how the 
government should work.
    I wish the taxpayers could see, rather than the infighting 
that we often see in Washington, this is an example of people 
working together, getting the most use out of every tax dollar, 
and producing a solid result. It is a phenomenal example of 
leadership.
    Senator Akaka. Thank you for that additional comment on 
that. I really appreciate what you have been doing.
    Ms. Blair, I was interested to learn that your agency 
developed a process to assess the competencies and skill gaps 
for each individual in your HR workforce. You then implemented 
a plan to close each of the individual's skill gaps.
    I would like to know how individual employees have 
responded to this process and whether you believe working with 
employees on an individual basis has been worth the time and 
effort that you have given already.
    Ms. Blair. Well, thank you for your question, sir. Before I 
answer, may I just add to both Secretary Sepulveda and Director 
Berry's comments that the other agencies of the government I 
think are genuinely grateful for the generosity and resources 
and all-around help from the Veterans' Affairs Department. They 
have been so generous and I would like to recognize that and 
acknowledge that we do cooperate a lot.
    With regard to your question, it is never a waste of time 
to spend time or effort trying to help someone be their best. 
So, even if our employees in the HR area were not very 
enthusiastic, it would still be worthwhile to do.
    But, as I mentioned, they have embraced this program very 
warmly. We have had within a very short time after we started 
the individual development plan process, we had at least 65 
percent of our HR specialists on an individual development plan 
which they had designed in conjunction with their supervisor to 
attack their specific needs; and in a very short time after 
that, we got 95 percent.
    So, it has been broadly embraced and I can only point to 
the amazing number of essential volunteer hours that people 
have devoted to our assessment, competency building and 
community building activities as evidence that this whole idea 
has been a very popular one with our workforce and I believe 
that it is already showing results.
    Senator Akaka. Thank you.
    I just want to step back, Mr. Sepulveda. Under your 
leadership, VA has developed HR Academy prior to the 
development of HR University and has been a leader in 
developing and training HR professionals.
    How do you evaluate your training programs to ensure that 
they are effective and what results have you seen from that 
investment in terms of performance or morale and even budget 
savings?
    Mr. Sepulveda. Thank you for the question, Mr. Chairman.
    First and foremost, I want to make clear for the record 
that while the HR Academy was developed at VA to serve the 
specific needs of the HR professionals, we have been working 
very closely with OPM and the CHCO Council in contributing some 
of our courses to the HR University.
    We think the HR University is a fantastic resource for our 
HR professionals as well as HR professionals across government, 
and we are really excited about HR University. We are going to 
leverage it and we are going to continue to contribute whatever 
way we can to that endeavor because that truly is a 
manifestation of all of these departments working so closely 
together.
    With regard to evaluating our training and development, we 
really have gone at it several ways. First and foremost, 
particularly with the courses that are in person, classroom-
based courses, we do pre-tests.
    So we actually test the individuals before they take the 
course to see what their level of proficiency is. Then, we test 
them at the end to see how they improved; and on average, we 
found across all the different training we do which is 
including project and program management, IT, HR, finance, and 
budget analysts' training and other training we found an 
improvement of over 17 percent.
    Then, what we do is we follow it up and we survey the 
supervisors to see whether they have seen any improvement on 
the basis of this course on the part of their employees, and we 
had a statistically significant sample of supervisors. Sixty-
seven percent of them said that they did see, they did agree or 
strongly agreed that there was an overall job performance 
improvement on the basis of the training.
    Then, what we also did is we proceeded to look at what is 
the outcome, what are the organizational performance outcomes 
as a result of this training.
    So, we looked at specifically the training we did with our 
5,400 finance and budget analysts that we trained; and we 
determined--and this was the opinion of the chief financial 
officer (CFO)--that because of that training they were able to 
limit three material weaknesses in the financial area at the VA 
and also reduce significant deficiencies from 16 to 2.
    So organizationally in the finance area the training that 
we are doing is having an impact in improving management of 
financial systems.
    We did the same thing with IT. We took a look at what was 
the result of the project and program management training we 
delivered to the IT professionals there. We found that they 
improved their ability to deliver on their IT milestones up to 
close to 90 percent.
    Then, we looked at, well, can we also identify are we 
saving any money, are we avoiding any costs. And so, we brought 
in Deloitte to do an independent analysis and they looked at a 
number of areas where our training was impactful and they look 
specifically at one with regard to employee turnover, 
regrettable turnover, in other words, looking at those offices 
that had a high percentage of employees who has taken our 
courses, our training, versus those offices or facilities or 
medical centers where you had a lower percentage of employees 
taking our courses.
    And, they determined that in those offices where there was 
a higher percentage of our employees taking our courses, 
turnover was much lower. Morale is much higher. And, when you 
calculated the costs associated with regrettable turnover, in 
the first year of the program which was 2010--that was a short 
year because obviously we just started the program--we had a 
cost avoidance of $80 million. In the second year, 2011, over 
$200 million.
    So, that is significant and that is just simply in that one 
area, the area of employee turnover. So, we continue to 
evaluate, but at the end, we know that we need to identify in 
monetary terms a return on investment and we are continually 
looking for how this investment makes a difference and the 
factors that we are determining that it does.
    Senator Akaka. Mr. Berry.
    Mr. Berry. Mr. Chairman, if I could add, looking at how we 
assess the success of some of these programs, one of the things 
that OPM tries to do to help all of the agencies is that we 
have developed in partnership with Booz Allen Hamilton 
something called a Federal Competency Assessment Tool and we 
are looking to do this on a biannual basis.
    But what it does is it looks at 33 competencies that the 
CHCO Council has identified in the HR profession and we assess 
and survey both employees as to how they feel the training went 
in terms of a self-assessment but then also go back to their 
supervisor and get that assessment as well. And then, in 
comparing the two assessments, we identify gaps.
    So, if the employee, for example, thinks, wow, they are 
just, the best thing since sliced bread and they are doing a 
great job but their supervisor does not agree, that is a gap.
    And so, trying to see what is going on there, what we are 
looking at, as to how to improve that training so that we end 
up with them both being closer together, that is when we find 
we are closer to reality.
    A good example of some of the gaps we have found in general 
incompetencies, two of the areas that were the largest were 
project management and organizational awareness. And so, those 
were areas, for example, that we learned that we could do a 
better job by targeting in.
    So, we are trying to refine these assessments and surveys 
and then we can share with each of the agencies both agency-
specific data as well as governmentwide data and so they can 
see how they stand and stack up with their colleagues as well.
    So, I think as this goes on, we are going to be using this 
tool with the HR University courses, and I think it will help 
us to, again assess, refine, improve, sort of create a cycle 
where we get better and better.
    Senator Akaka. Thank you so much for that.
    Mr. Sepulveda, you testified that there is a commitment 
from the top of the agency to transform the VA for the 21st 
Century and that part of the effort includes transforming human 
capital management.
    With so many important management initiatives being driven 
by top Federal leaders, how do you ensure that your HR 
workforce across the country is fully equipped to support these 
initiatives?
    Mr. Sepulveda. Mr. Chairman, there are a number of things 
that we are doing to ensure that our HR colleagues across the 
VA are fully participating in the transformation of the 
department so, first and foremost, obviously the training they 
need so that they can fill gaps but also in the process we are 
also communicating what are the priorities of the 
Administration, of the Secretary, of the Deputy Secretary.
    In addition, we are also involving these HR professionals 
in carrying out priorities that have been set by OPM, hiring 
reform being an example of that. We have extensively trained 
our HR professionals to make sure that they understand how best 
to carry out HR reform.
    Veterans employment, I mentioned earlier, is another area 
where in many cases we have HR professionals who are not 
familiar with veterans preference and how those can be used to 
directly hire qualified veterans.
    We are also developing right now a strategic plan to 
formalize those relationships across the VA, creating a 
clearinghouse within VA just for the HR professionals so that 
the information we get from OPM and other sources we can ensure 
gets down to those HR professionals out there in the field much 
faster and easier to understand.
    The other thing we are going to be developing in the next 
few months is an HR policy and priorities council where I am 
going to be bringing in my colleagues from around VA so we can 
talk together and plan together.
    We already have an integrated HR board but we are looking 
to expand that. So, we are looking at a variety of ways to make 
sure that the rest of the HR team is fully engaged.
    But I would like to end by saying I am really very honored 
and fortunate to be working for Secretary Shinseki, who, as you 
know, sir, is a true leader in moving forward in an institution 
like VA and the Deputy Secretary Scott Gould is truly an expert 
in investing in human capital. I mean he literally wrote a book 
on the subject.
    These are two gentlemen who have been absolutely 
supportive, very clear about the need to invest in our 
employees. There is no way you can transform the department to 
better serve our veterans if you do not invest in your 
employees.
    So, I am very proud to be working under the direction of 
these gentlemen and I have gotten all the support that I could 
possibly need and want as a result of their leadership.
    Senator Akaka. Thank you very much for that and mentioning 
General Shinseki, the Secretary who has done so much for our 
country as a Chief of the Army as well and so his experience 
with that and helping them transition into the civilian life is 
really helping what we are trying to do.
    It is great to have leaders like you in bringing that 
about, especially when you talk about 317,000 Federal workers, 
that is a lot to deal with. But we just have to do it and I am 
so glad you are doing what you are doing. So thank you.
    Ms. Blair, I understand--and again I appreciate your 
leadership as well in these areas--that you have developed a 
certification program for HR professionals at Treasury which 
you will be rolling out soon.
    Please tell us more about how that certification would work 
and how it differs from existing private-sector certification 
programs, and if it could be used as another kind of model for 
a governmentwide program as well?
    Ms. Blair. Thank you, Mr. Chairman. I appreciate the chance 
to brag about our certification program.
    We did look at some of the private sector models and we 
felt for a variety of reasons that it would be more productive 
to take account of the unique aspects of the Federal Government 
environment and our rules and regulations and focus on what we 
might be able to do within the Federal Government to allow 
people to make the best advantage of the conditions under which 
they operate, typically very large organizations with very 
specialized rules and people with oftentimes longevity in their 
career because it makes sense if you are enjoying your service 
to keep on serving.
    So, we did examine some outside examples and we also 
consulted among our own senior people. We consulted with people 
whom we knew from the outside. We contacted friends across the 
government, other CHCO agencies, to be able to design something 
that we thought would serve as an incentive for our most 
talented people to want to not only hone the competencies that 
they now have but also stretch themselves in order to become 
certified and have the ability to advance in their career.
    Our certification process combines not only specific 
training and experience but it also allows people to 
demonstrate that they have gained the requisite training and 
experience through different means.
    Training might be in a formal educational situation. It 
might be what we might call on-the-job training. Experience 
could be through having had a job or it might be through having 
participated in a working group.
    We intend to ask each of our candidates for certification 
to basically come up and be interviewed by a panel of senior 
practitioners in that area as something that we envisioned as 
kind of a doctoral dissertation defense type of process.
    We will also be looking for our certificate people to have 
demonstrated that they understand the importance of being a 
part of the community, and so, we will be looking for people 
who have not only focused upon their own personal advancement 
and growth but also contributed to the advancement and growth 
of all human capital professionals within Treasury.
    This is a beginning program. We are combining it obviously 
with our model of career advancement and our career guides 
which basically serve as a roadmap for our human capital 
professionals to be able to advance in their careers.
    But we are excited about it because it is a fresh look at a 
problem that has been circling around this area for a long 
time: How do we design something that will fairly reflect 
people's experience and knowledge? And we think we have built 
something that is broad enough but yet has enough high quality 
built into it that people who obtain certification will have 
the Good Housekeeping Seal of Approval.
    Senator Akaka. Thank you very much for your response.
    Director Berry, I believe that the effective mentoring 
programs, and here again you have so many good ideas and 
programs that have been coming forth and mentoring is one of 
them. I believe the effective mentoring programs are an 
important goal for building the next generation of Federal 
workers, especially since so many Federal workers will soon be 
eligible to retire. You testified that OPM has helped agencies 
as well develop HR mentorship clusters.
    Do you have examples of how these mentoring clusters are 
working for smaller agencies?
    Mr. Berry. Well, Mr. Chairman, I will tell you as somebody 
who would not have a career today without mentors in my life, I 
remember being a young 25-year-old wet behind the ears 
legislative assistant to Mr. Hoyer who sat right behind you and 
you and he were willing to mentor and teach the ropes to myself 
back in the late 1980s over in the House of Representatives.
    And I look at it as a special responsibility when you have 
been given a gift to have had such wonderful mentors in your 
life that you need to turn around and do the exact same.
    You were very kind, sir, when I took this job to allow one 
of your staff, Thomas Richards, to come and join my team at OPM 
and I took very seriously my responsibility to be a mentor to 
him. And, let me tell you, he is going to be a future leader of 
our government. He is a phenomenal individual and I am very 
grateful for your donation to the Executive Branch. [Laughter.]
    But there have been, you have heard, I think, a number of 
examples today of how larger agencies with a little deeper 
pockets than some of the smaller ones have stepped up to the 
plate. The VA for Vets and this IT platform being a prime 
example that we are now, being able to share with smaller 
agencies.
    But we could not have rolled out the veterans program, for 
example, the veterans hiring initiative, we could not have 
rolled out the hiring, the time to hire model as fast as we did 
and to achieve the results that we did to move to a resume-
based model without larger agencies adopting smaller agencies 
and helping them. Here is a tool you can use or this is one we 
have developed or an assessment tool based on resumes that 
allowed smaller agencies to pick up that technology and hit the 
ground running. They would not have been able to do that by 
themselves.
    And so, we saw firsthand right at the beginning the 
difference that could make. And so, we have decided, we have so 
many small agencies--there are over 64 of them--whereas there 
are only 24 of the larger type agencies, that we can pair those 
up and create those mentorship communities, if you will, in an 
organizational sense so that everybody has a big brother or a 
big sister and will have someone looking out for them, helping 
to show them the ropes, helping them to not make the same 
mistakes.
    I think it can be very powerful but I also do not want to 
forget--that is an organizational sense. But my dream would be 
where every Federal leader and every Federal supervisor would 
become a mentor for someone, whether it be a new entry in the 
government or whether it be their successor, and I think we 
have a special responsibility.
    I know one of the efforts you are helping to launch is a 
phased retirement that will allow us to encourage our 
experienced employees to move more slowly into retirement and 
in exchange for that benefit to make sure that they also have 
that knowledge transfer to the next generation by agreeing to 
either develop their successor or to mentor a newbie. It is 
invaluable.
    One of the reasons we lose students and interns when we 
bring them on is we have not paired them with a mentor, and so 
they run into a culture that they are unfamiliar with.
    All of us can remember sitting at a table in the lunchroom, 
in our younger years where we had that alone period. You were 
the new kid or at a new school, and, that translates at any age 
group.
    We need to make sure, as people are joining, whatever age 
they are joining a new organization, especially some as large 
as you mentioned, the VA can be very intimidating, can be very 
impersonal.
    And, if they have a mentor, somebody they can go to and say 
how have you handled this or how have you handled this 
situation, it could be the difference between us losing that 
person or keeping them into a career and growing them into a 
career.
    So, I am working with the Senior Executive Association 
(SEA) and others to really try to help, on a voluntary basis to 
have all of our senior executives and to have all of our 
managers step up and be mentors because it can be one of our 
most effective approaches in terms of knowledge transfer, sir, 
and let me end by just thanking you again by being one for me. 
I appreciate it very much.
    Senator Akaka. Thank you very much. I am so glad that we 
are able to do that.
    I can go on but I am going to ask the last question to this 
panel. Let me start with Mr. Sepulveda and Ms. Blair. Your 
agency's human capital officers are leaders in your efforts to 
analyze and improve your HR workforces.
    How has OPM supported these efforts and do you have 
recommendations for how OPM could provide more effective 
support? And I would like to have Mr. Berry make any further 
comments after that. [Laughter.]
    Senator Akaka. Ms. Blair.
    Ms. Blair. Well, I am happy to go first because I have been 
so impressed by the support and organization framework that OPM 
has provided through the CHCO Council and through other 
activities.
    Our staff works closely with their staff. It is not only at 
the CHCO level. And, I would call out not only Mr. Berry but 
Kathryn Medina, our Executive Director of the CHCO Council, as 
well for being such leaders in enabling us to get together and 
do the things that we need to do.
    Honestly, I cannot think of anything else that I would be 
asking and I am sorry I cannot because I could probably get it 
right now. [Laughter.]
    But truly they have done a wonderful job and I think, I 
could not ask for more in terms of their support for any kind 
of innovation or initiatives that we want to take up. They make 
it possible for us to reach out across government and they are 
incredibly generous with time and resources for us.
    Senator Akaka. Thank you so much for that. Mr. Sepulveda.
    Mr. Sepulveda. Mr. Chairman, I am in the same spot as 
Anita, Ms. Blair, because I have to tell you I have had a great 
working relationship with OPM.
    I have a soft spot in my heart because I worked there many 
years ago. A number of the people who I worked with at that 
time are still there, and so there are personal relationships, 
and John and I worked together in the Clinton Administration. 
His Chief of Staff, Liz Montoya, is an old friend.
    So, there are relationships. Kathryn Medina. I think 
relationships help a lot especially when you have to work 
through some bumpy issues. You do it out of respect. You work 
through them out of respect.
    But you have some extraordinary people at OPM, absolutely 
dedicated professionals. Angie Bailey. I mean, I could go on 
and on. But the fact of the matter is you have got Joe Kennedy, 
you have great people who lean forward and I always respect 
people who lean forward, who do not wait for the call that you 
may make to them. They will call you.
    So, when we were working through hiring reform, that is a 
major area, challenging our agencies, the ability to hire 
people quickly, high-quality people quickly because even in 
this job market high quality people are not going to remain out 
there for 6 months, 8 months, a year.
    And, our government needs to have the best and the 
brightest as quickly as possible. So, hiring reform is 
something that Director Berry took on as a challenge. People 
have talked about hiring reform for many years but he took it 
on.
    He brought the CHCO Council together and he leveraged his 
best people to work with each of the agencies, including VA, to 
problem solve, to figure out how to use best practices and how 
to customize to the individual agencies; and they were always 
constantly available to answer any policy questions.
    And as a result, we were able to move the needle. And, the 
partnership that we have VA with OPM, I think, is a testament 
to the dedication of these individuals.
    Senator Akaka. Well, let me sincerely point out that I am 
so glad to hear those responses because I wanted Director Berry 
to hear it. [Laughter.]
    And so now, Director Berry, any further comments that he 
may have on this.
    Mr. Berry. Well, first, thank you. That is extremely kind; 
and I will tell you, Mr. Chairman, it has been a real privilege 
to work at the Office of Personnel Management. We have 
phenomenal employees.
    I think in many ways they were held back and they were not 
allowed to reach their full potential, and I think our culture 
when I got there, I think if you had asked and maybe if I was 
not in the room, OPM was widely referred to as No PM. We have 
tried to change that to Go PM.
    I have made clear to my folks that sometimes no is the 
right answer; but if you are going to tell someone no, if they 
object and they are trying to achieve is legal and appropriate, 
then we need to give them at least two alternatives for how 
they can achieve the same objective if they cannot go the way 
that they wanted to go.
    And, that is now, I think, really sinking in, and I think 
it is our people, when you unleash them and allow them to 
develop those creative ways within law and regulation to get to 
a good objective, a good end, then everybody wins.
    The agencies win. The taxpayer wins, and our employees are 
allowed to go home at the end of the day knowing that they have 
solved problems.
    And so, it has been an honor to work with them, sir. It has 
been a great rolling ride and it sounds like I have got a good 
Director and Deputy here to turn it over to if I move on.
    So, thank you, sir, for the opportunity to be with you and 
we will look forward to continuing to work with you on so many 
challenges in the months ahead.
    Senator Akaka. Well, again, let me say Mahalo nui loa. 
Thank you very much for your responses, for especially the work 
that you have been doing in this effort to really help our 
public servants to be the best and most qualified, and it seems 
as though we are coming from Hawaii, we are in the same canoe 
and on the same course.
    So, thank you so much for your valuable testimony and your 
responses as well and for your efforts and support in 
recognizing the public servants working in your agencies and 
governmentwide as well.
    And so, I want to wish you well in your work and there is 
so much more to do. We know that, but I think we are heading on 
the right course in the same canoe, using or getting each other 
to help in bringing that about so that we are doing it together 
rather than separately and even sharing resources as we do 
that.
    So, again, Mahalo. Thank you very much.
    Mr. Berry. Thank you, Mr. Chairman.
    Mr. Sepulveda. Thank you, Mr. Chairman.
    Ms. Blair. Thank you, Mr. Chairman.
    Senator Akaka. I wish you well.
    I would like to ask our second panel of witnesses to come 
forward. In our second panel with afternoon, we have Mr. John 
Palguta, Vice President for Policy at the Partnership for 
Public Service and also Ms. Sara Thompson, Dean, Metropolitan 
School of Professional Studies at the Catholic University of 
America.
    As you know, it is the custom of this Subcommittee to swear 
in all of our witnesses. I would ask you to please stand and 
raise your right hand.
    Do you swear that the testimony you are about to give the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth so help you, God?
    Mr. Palguta. I do.
    Ms. Thompson. I do.
    Senator Akaka. Thank you.
    Let the record show that our witnesses answered in the 
affirmative.
    So, Mr. Palguta, will you please proceed with your 
statement.

   TESTIMONY OF JOHN PALGUTA,\1\ VICE PRESIDENT FOR POLICY, 
                 PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Palguta. Thank you, Mr. Chairman, as with the previous 
panel, I have to start with thanking you for your leadership 
and your support of the Federal workforce, including your 
sponsorship of the resolution this week in support of Public 
Service Recognition Week with which, as you know, the 
Partnership for Public Service is very involved. Thank you, 
sir. 
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Palguta appears in the appendix 
on page 57.
---------------------------------------------------------------------------
    I am the Vice President for Policy at the Partnership for 
Public Service. I have been at the Partnership for 10 years. 
Prior to that, however, I had a career of over 30 years in the 
Federal Government as a Federal HR professional, and so in 
part, I feel this is a hearing about my people.
    I chose the HR profession knowing that good HR management 
and good HR professionals can make a tremendous difference in 
ensuring that we have an effective Federal government workforce 
and an effective government. In fact, I felt so strongly about 
it 35 years ago that I married a Federal HR professional, my 
wife, and she is still my wife although recently retired from 
government.
    The topic, Mr. Chairman, of this hearing is particularly 
timely and critical. For over two decades now, we have a 
growing body of evidence that there are just simply too many HR 
staff members in government who are not yet at the level they 
need to be to fully help their agencies target, obtain, 
develop, and retain the talent they need to execute their 
missions.
    Some of that evidence is in my written testimony. I am not 
going to belabor the point. You heard from the previous 
panelists about some of the skills gaps they are working to 
close.
    I do want to hasten to add, however, that we also have some 
great HR professionals in government. You saw three of them at 
this table earlier, and they have staff under them who are 
doing a tremendous job.
    This is not an indictment of the Federal HR workforce but 
rather an acknowledgment that while we have some highly 
competent and qualified people we need to elevate the rest of 
the workforce to that same level.
    I have four points I want to make. That was one. The second 
point is that part of the issue here is not that we have not 
brought in great people to the HR workforce, but the HR 
environment in government itself has become more complex and 
more demanding.
    When I was in government 20 years ago it was actually much 
easier being a good HR professional. We had centralized 
examining and recruitment. We did not have to worry about HR 
technology because we did not have it. We did not have the 
Internet. We did not have personal computers. Yes, I go back 
that far.
    But we now have increased the HR flexibilities in 
government which is a good thing. With flexibilities and 
additional alternatives, we need people who are skilled at 
helping their agency leaders decide among those flexibilities 
and alternatives.
    We have changing workforce demographics. The increased pace 
of change in government and in the government workforce has 
made the job of a Federal HR worker more complex. 
Unfortunately, the HR workforce has not had the opportunity to 
keep up with the changing environment. We need to change that.
    The third point I would like to make is that in large part 
the HR workforce has been very akin to the shoemaker's 
children. They were the people out there who were helping other 
segments of the Federal workforce maintain and improve their 
workers, particularly if you look at the acquisition and 
information technology communities.
    For many years now they have really focused on improving 
and maintaining the skill level in those communities; and in 
some ways, the HR workforce languished a bit. You heard from 
the previous panel that the situation is changing, but that is 
where we are starting from.
    The fourth point then is that there is some good news. The 
HR community is starting to catch up and I was pleased to hear 
some of the good work being done stated publically.
    HR University, the changing and more proactive role of the 
Office of Personnel Management and the work of the Chief Human 
Capital Officer Council have been very valuable.
    As you may know, the Partnership for Public Service itself 
has, as a nonprofit, nonpartisan organization devoted to 
improving the effectiveness of government, focused on the 
Federal HR workforce as part of our efforts to help reform 
government.
    In particular, I have the privilege within the Partnership 
of helping to lead the Federal Human Capital Collaborative. It 
is a cross agency community of Federal HR leaders that join 
together with the participation of the Partnership in an effort 
to identify and collectively work on issues and problems.
    I am pleased that, for example, the Department of Treasury 
and the Department of Veterans Affairs, who are represented 
here, are members of our Collaborative. Kathryn Medina, who 
John Berry accurately pointed out as one of the leaders on the 
Council as the Executive Director, attends our Collaborative 
meetings.
    One particular aspect of the Collaborative, which Anita 
Blair from Treasury mentioned, is our Emerging HR Leaders 
program. When we asked the Chief Human Capital Officer 
community what we could do to help, they told us they needed 
help elevating their own workers.
    Our Emerging HR Leaders program started a little over 2 
years ago. It is a year-long, facilitated, peer exchange 
program. Agencies nominate their HR professionals, their rising 
stars if you will, and for one year they meet monthly. They 
share information and we bring in subject matter experts on 
topics of their choosing. They have action learning projects 
that they work on as a cross-agency community of professionals.
    One of those projects, for example, resulted in the 
development of what was called the Strategic HR Advisors 
Results Project (SHARP), where they themselves identified, as 
emerging leaders the competencies needed to be true strategic 
advisors as well as a developmental plan for how to acquire 
those skills. That project is now on HR University.
    This is good news, and shows that there is progress being 
made. I think, we have in my written testimony a number of 
recommendations. I would just like to highlight four of them.
    First, I think it is going to be quite important that the 
Federal Government continue to maintain its focus on improving 
the HR workforce. This is not a one-off problem that we can fix 
and simply move on.
    When you are talking about developing a cadre of 
professionals you need to look at continual learning and 
progress. That investment, as you also heard from the previous 
panel, can have a significant return in terms of cost savings 
and in terms of more effective government, but we have to 
continue to make that investment in people.
    The second recommendation to highlight is that improving 
the quality and competency of the workforce should be 
approached and, I think, is being approached as a shared 
responsibility.
    It is not just the HR community. We need government 
leaders. We need Members of Congress such as yourself, Mr. 
Chairman, who understand the need to develop a great workforce, 
and in particular, to develop a great HR workforce. We also 
have to have accountability for results. We need to track what 
is happening to make sure we are making progress.
    I would like to highlight two other recommendations. One is 
that Federal agencies need to be encouraged to reward or 
recognize their HR professionals. Many do but we need to make 
that the norm, particularly HR professionals who make the 
effort to take some control over their own career and to expand 
their knowledge and skills.
    This should include incentives and support for those who 
demonstrate or seek mobility in their career. My wife for 
example, she worked for 10 different Federal agencies. She was 
my touchstone when I wanted to know what was really going on 
out there in the HR environment. She could tell me because she 
had that breadth of experience.
    I think we need to encourage that sort of mobility and 
sharing. I know you, Mr. Chairman, have focused on the senior 
executive workforce. We have talked with you about the value of 
mobility in becoming a senior executive. Making mobility a 
prerequisite for senior leadership could be a valuable thing to 
do.
    Finally, we have been talking about supporting the current 
HR workers, which is obviously highly important. However, the 
HR workforce is aging. It is actually older than the average 
age in government.
    Last year alone one out of every 10 HR workers left the 
Federal Government, mostly through retirement, while others 
left the profession.
    The last recommendation I would like to highlight is that 
we need to focus on the pipeline of talent. We need to make 
sure that we are bringing in talented and motivated workers who 
have a desire and an affinity, for working on the people issues 
of government.
    I suggest that Congress consider establishing a Federalwide 
HR intern program built on the model of the Presidential 
Management Fellows Program. The program would be focused on 
identifying people who are highly skilled in terms of their raw 
talent and who have an interest in the HR profession, and put 
them in a program that is going to foster and develop that 
talent.
    But I am going to end there, Mr. Chairman. Again thank you 
so much for not only everything you have done but for focusing 
on this community that I love. Thank you.
    Senator Akaka. Thank you very much for your statement. I 
want you to know that your full statements will be included in 
the record.
    Ms. Thompson, will you please begin with your testimony.

TESTIMONY OF SARA THOMPSON,\1\ PH.D., DEAN, METROPOLITAN SCHOOL 
  OF PROFESSIONAL STUDIES, THE CATHOLIC UNIVERSITY OF AMERICA

    Ms. Thompson. Certainly. Good afternoon. I am Dr. Sara 
Thompson, Dean of the Metropolitan School of Professional 
Studies and Associate Provost for New Program Initiatives at 
the Catholic University of America.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Thompson appears in the appendix 
on page 64.
---------------------------------------------------------------------------
    I would like to thank you, Chairman Akaka, for the 
opportunity to discuss this important topic. The three areas 
that I will address are, one, the need for professional 
development in Federal HR; two, Catholic University's academic 
programs for Federal HR professionals which provide an example 
of meeting this need; and the success of these programs thus 
far.
    First, regarding professional development, the mission of 
the Catholic University of America's Metropolitan School is to 
offer educational opportunities to adult learners in the 
greater Washington, DC., region and beyond, to be the bridge 
between employers and employees in helping to prepare the 
workforce.
    We view our service to the Federal workforce as vital to 
our mission of outreach. In this role, the school continuously 
researches areas in which professional development needs to 
exist. We found that Federal HR, in particular, has significant 
needs for several reasons, many of which have been discussed 
today, including the transition in the field from transactional 
focus to that of strategic consultant. In addition, all HR 
professionals, current and future, will need to meet the 
standards of competencies developed by the Chief Human Capital 
Officers in the U.S. Office of Personnel Management.
    So, how can the Federal Government address these needs? 
Employee training and development through programs such as 
those offered by Catholic University of America offers one 
effective approach. We put forth a comprehensive Federal HR 
professional development ladder so that no matter where the 
Federal HR professionals are in their careers, our programs can 
help prepare them for the next level.
    For entry-level grades, GS-5 through-9, we offer the HR-
related certificate and the Bachelors Degree both of which to 
build competencies at the CHCO awareness to intermediate level. 
For mid- and upper-GS levels, we offer a Master of Arts in 
Human Resource Management with a specialized track in Federal 
HR which incorporates the CHCO competencies at the advanced 
expert level. We believe that this is the only HR Master's 
Degree in the country with a specialization in Federal HR and 
the only to integrate CHCO competencies. It is a 36-credit 
degree program offered in the evenings and online. Most 
students complete their degrees on a part-time basis in 1\1/2\ 
to 2 years.
    The courses are taught by experienced individuals who 
either are or have been senior-level Federal HR professionals. 
As the only DC-based university with a partnership with the 
Society for Human Resource Management, we also prepare students 
in these programs for professional certifications, including 
the highly regarded credential of Professional in Human 
Resources (PHR), and Senior Professional in Human Resources 
(SPHR).
    We have developed partnerships with several Federal 
agencies, including HR University, to offer our masters program 
in Federal HR, the U.S. Department of Veterans Affairs to offer 
a Masters program on site at their central office, and NASA for 
the Certification Exam Preparation Course.
    Finally, the success of these programs are of course the 
learning outcomes are measured by the university. But equally 
important is the application of the course material in the 
Federal workplaces and the hiring and promotion of our 
graduates. Employing agencies confirm that we have succeeded in 
a moving their graduates from a compliance driven framework to 
a more strategic thinking about how their projects and tasks 
relate to the organization's mission.
    In addition, students have offered very positive feedback. 
One spoke of being promoted twice since beginning her studies.
    Another said, quote, the courses I have taken have 
definitely helped to jumpstart my career in the Federal 
Government. Within the first semester, I landed a job with the 
Federal Energy Regulatory Commission (FERC), working as a 
management analyst in the office of the Executive Director. 
While working full time and going to school at night can be 
challenging, I was excited to learn that projects at work 
directly correlated to the assignments from my classes. I was 
tasked to write the Office of Executive Director (OED) 
submission for FERC's human capital plan. The fact that I was 
taking an HR class entitled strategic human capital management 
in the Federal sector at the time was extremely beneficial to 
me, unquote.
    So, in summary, these programs serve to build a pipeline of 
highly qualified workers from within the agencies and to 
attract those from outside to a career of public service.
    Thank you again for this opportunity.
    Senator Akaka. Thank you very much for your testimony.
    Mr. Palguta, in a recent report the partnership found that 
Federal HR offices generally have done a good job developing 
succession plans for the agencywide workforces but they have 
failed to develop succession plans for their own HR offices.
    What effect has this had on agency HR offices and what can 
be done to ensure that a new generation of HR professionals 
will be prepared to lead?
    Mr. Palguta. That is an excellent question, Mr. Chairman. 
It goes back to my metaphor of the HR community being like the 
shoemaker's children, taking care of others while their own 
children are barefoot.
    I think the impact of not having done, until now, better 
succession planning is that we have many excellent HR people 
who are leaving government. They have served their career and 
have done tremendous work, and now they are leaving. The 
pipeline of talent behind them that we would expect to move up 
to replace them is very thin. We still have great people 
throughout, but not enough.
    So, I think what you heard from the previous panel and what 
we are discussing here is that the HR community is playing 
catch-up. They have to accelerate their efforts not only to 
prepare the existing workers to fill in behind the leaders who 
will be leaving government, but they also have to start filling 
that pipeline with new talent. Hence, my earlier comment about 
an HR intern program.
    I had the opportunity to talk one on one with many of the 
Chief Human Capital Officers in government. They recognize 
this, and that is the good news. They know this is an issue and 
they are working hard to remedy it but it is going to take 
sustained effort over several years to refill that talent 
pipeline with the type of talent we need for the future.
    Senator Akaka. Thank you.
    Ms. Thompson, I was really happy to learn that Catholic 
University provides graduate-level courses in Federal 
Government HR issues such as Federal pay and benefits, 
performance management, and labor relations.
    Will you please explain how you developed your curriculum 
and in particular what input the Office of Personnel Management 
and the Chief Human Capital Officers Council provided you?
    Ms. Thompson. Certainly, it was quite a process that 
started about 8 years ago, and we actually began working with 
OPM with Steve Benowitz just as he was about to retire, and he 
was of great assistance to us in helping to develop the 
program.
    We worked with the Workforce Development Subcommittee of 
the CHCO Council and had several focus groups with Federal 
agencies across the board asking what they really needed, what 
did they want from their workforce.
    We also had focus groups and lots of discussions with 
Federal HR specialists and those that wanted to become HR 
specialists. So, we really worked with the entire circle of 
people who were involved in this and the stakeholders.
    They gave significant input about what they appreciated. It 
is two schools of thought as one person said, that you can have 
HR management skills in a general sense and apply them. The 
other school of thought is the public and private sectors are 
fundamentally different and they need different programs.
    What we tried to do with this program is blend the best of 
both worlds so that we have a broad HR foundation but very 
focused on some of the courses in the track in Federal HR.
    Senator Akaka. Thank you.
    Ms. Thompson, as witnesses on the first panel testified, 
the skills and abilities necessary to succeed as Federal human 
resource professionals are constantly changing and are becoming 
more demanding.
    What does your institution do to stay current with HR 
practices both in the Federal Government and also in the 
private sector?
    Ms. Thompson. Well, we are very involved with the agencies, 
with the students, with the leadership first of all. Always 
kind of keeping our ear to the ground about what is current and 
what the changing needs are. We are also involved with the 
Society for Human Resource Management, which I described, which 
provides a very highly regarded credential PHR and SPHR and 
that program is evolving as well.
    So, we feel as though by being involved in both the Federal 
sector and the private sector that we really have a sense of 
what is going on in the HR world.
    Senator Akaka. Yes.
    Mr. Palguta, in your testimony you talked about the 
Partnership's recent report that looked at lessons learned from 
the budget cuts in the 1990s. At that time, some cost cutting 
strategies included reducing the size of the Federal workforce 
and decreasing administrative costs. Ms. Blair testified about 
the generational gaps this workforce strategy created and the 
challenges we continue to face because of that.
    Will you please discuss how you believe these cuts impacted 
the Federal HR workforce?
    Mr. Palguta. Certainly, Mr. Chairman. I think the original 
intent was good. The reductions in administrative costs, was at 
a time when we had a budget surplus in the country so it was 
not so much about cost savings, it was about making government 
work better and cost less.
    The notion was not to diminish the work of the HR community 
but rather to improve efficiency, improve the use of 
technology, and simplify some of our regulations and laws.
    Unfortunately what occurred was we disproportionately 
reduced the number of HR staff in government by over 20 
percent, one of the largest cuts in all of these support 
occupations. There were similar cuts, of course, in acquisition 
and in information technology.
    The unintended result was that we did not achieve all of 
the efficiencies that we had hoped for in streamlining the 
process, implementing the technologies or reducing the 
complexity of some of these laws and regulations.
    Instead, what we found was that we had fewer people to do 
an increasingly complex job, and we did not hire. We did not 
refill the pipeline. Most of the reductions came through 
attrition.
    So, as some of our most experienced HR professionals and 
leaders left the government through buyouts and through 
retirements, we were not bringing in new individuals. Were 
promoting employees already in the agencies and they were 
finding themselves overwhelmed.
    We saw the same thing in the acquisition community. We 
discovered that the greater reliance upon contracting support 
became problematic because we did not have people to administer 
the contracts and to ensure the taxpayers interest in making 
sure that public money was well-spent.
    I think that realization came later for the HR community. 
As it turned out we were simply being overwhelmed. As the 
number of applications for Federal jobs started to increase, 
there were fewer people to process them.
    Agency managers started looking for help on how to manage 
in a downsized environment, a situation we are facing today as 
a matter of fact as we are looking at ways to save money by 
reducing costs. Managers are asking for help on managing their 
workforce more cost effectively, and we do not have enough HR 
individuals with the right skill set to provide that strategic 
help on the variety of strategies that are going to work best 
in this environment.
    We realize that now and are trying to rebuild that 
capacity. But frankly, part of the problem right now and the 
reason we are playing catch-up in part goes back to how we 
downsized the HR workforce in the 90s.
    Senator Akaka. Thank you.
    Ms. Thompson, it is my understanding that many of the 
students in your Federal HR program are current Federal 
workers.
    Ms. Thompson. Uh-huh.
    Senator Akaka. What can be done to make more young people 
interested in pursuing this course of study early on or prior 
to joining the Federal workforce?
    Ms. Thompson. Well, alluding to the issue of internships, 
we found to be extremely attractive to people entering the 
field. They really get to explore what the field is about. They 
get a taste of what the work is about.
    When we couple that with an evening program such as our 
Masters in Federal HR, they see the relevance. They bring it 
back to the workplace. We found that to be an excellent launch 
to a Federal career.
    Senator Akaka. Mr. Palguta, our first panel of witnesses 
talked about how OPM and the agencies are working together to 
improve the HR workforce. What opportunities do you see for 
increased collaboration among agencies?
    Mr. Palguta. Well, I think there is tremendous opportunity, 
Mr. Chairman. The good news here is that we are starting to see 
agencies take advantage of those opportunities for 
collaboration.
    For example, using the platform of HR University, agencies 
have developed training programs or partnerships with 
institutions such as the Catholic University. If they find that 
they have some excess capacity in an internal training program, 
they are opening that up to employees in other agencies, 
sometimes at no cost. It is an exchange.
    Focusing together on the best ways to build the 
competencies and sharing information about things that are 
working is another opportunity for collaboration.
    One other opportunity which has not been discussed is the 
issue of mobility. Mobility does not mean you have to 
permanently leave your agency to go to another agency. We can 
have a talent exchange within agencies.
    For example, I give you my rising HR star, you give me 
yours, and they learn about differences in how we do things, 
and they can bring some of their agencies or subcomponent's 
best practices that we have not thought of, and in the 
meantime, my person is learning about that agency's 
efficiencies and ways to operate that we might not have thought 
about.
    So, I think there are many opportunities for agencies to 
collaborate together, and I am also encouraged by the fact that 
we are seeing them collaborate with organizations outside of 
government such as the Catholic University of America.
    We have a wonderful relationship with the Office of 
Personnel Management and a number of other agencies. I know 
John Sepulveda and Anita very well, and I think those 
relationships are a very healthy thing to promote.
    None of us can afford to do it alone. We need to get in the 
canoe together, as you would say.
    Senator Akaka. Well, thank you.
    Do you have any further comments, Ms. Thompson?
    Ms. Thompson. Just a final comment that we are just so 
encouraged also and just thrilled to be a part of organizations 
such as HR University, the VA, and NASA, and we will support 
any further efforts.
    Senator Akaka. Yes, and I mentioned that I had that rare 
opportunity of speaking to 10 university presidents and trying 
to get them interested in thinking about what they can do to 
help--this is prior to graduation of students--to get them to 
begin to work in the area of the Federal Government with the 
hope that they will somehow do that, and I think that is an 
area that we need to explore.
    I do not know whether you have any ideas about that kind of 
possibility.
    Ms. Thompson. Well, we are happy to explore it with you. I 
think again the partnerships that do exist such as HR 
University that allows us to work in tandem with Federal 
agencies and to kind of get the word out that we have these 
programs that are highly attractive that, as our student said, 
they can be promoted twice within the 2-year period that they 
are in their studies. We just appreciate that opportunity.
    Senator Akaka. Even to the point of maybe creating 
internships----
    Ms. Thompson. Yes.
    Senator Akaka [continuing]. Where they can also explore 
different possibilities and see whether it can help them make 
some decisions as to what they need to do.
    I want to thank both of you for your responses. It has been 
valuable and will be valuable to us as we continue to work 
together to try to upgrade our workforce.
    It is more difficult. It is more complex. However, we need 
programs to deal with that and we can do it together and share 
some of these successes and failures as well. But the main 
effort would be to upgrade our workforce. We really need that.
    And, I want to thank you for your part in bringing that 
about and from your background and history of working with the 
Federal Government, many things that can be explored and worked 
on and improved in our workforce.
    So, thank you for your leadership in this area and we are 
very grateful for that.
    Ms. Thompson. Thank you.
    Mr. Palguta. Thank you, Mr. Chairman, and thank you for 
your leadership, sir.
    Ms. Thompson. I agree. Thank you.
    Senator Akaka. Thank you.
    So, I want to thank all of you and encourage all of us to 
continue working together with our Subcommittee to build a 
stronger professional HR workforce.
    Modern HR professionals must work with agency leadership to 
make sure that government is equipped to take on the pressing 
challenges our country faces.
    We will keep the hearing record open for one week for 
Members to submit any additional statements or even questions 
to our witnesses.
    Again, I want to thank you for your time and your 
contribution to us here today.
    Ms. Thompson. Thank you very much.
    Mr. Palguta. Thank you.
    Senator Akaka. This hearing is adjourned.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
